No. 19-309
In the

Supreme Court of the United States
__________________

JOHN C. CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
Respondent.
__________________
On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

__________________
Brief of Amicus Curiae Libertarian National
Committee in Support of Respondent
__________________

Oliver B. Hall
Counsel of Record
2515 Cliffbourne Pl. NW
Washington, D.C. 20009
(202) 280-0898
oliverbhall@gmail.com
Counsel for Amicus Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
INTRODUCTION AND
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I. THE TWO-PARTY PROVISION VIOLATES
LIBERTARIAN PARTY MEMBERS’
CONSTITUTIONAL RIGHTS. . . . . . . . . . . . . . . 6
II. THE TWO-PARTY PROVISION FURTHERS
THE PARTISAN INTERESTS OF
DELAWARE’S PREDOMINANT POLITICAL
PARTIES, NOT LEGITIMATE OR
COMPELLING STATE INTERESTS. . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ii
TABLE OF AUTHORITIES
CASES
Anderson v. Celebrezze,
460 U.S. 780 (1983). . . . . . . . . . . . . . . . . 1, 8, 9, 10
Branti v. Finkel,
445 U.S. 507 (1980). . . . . . . . . . . . . . . . . . . . . . 4, 9
Burdick v. Takushi,
504 U.S. 428 (1992). . . . . . . . . . . . . . . . . . . . . . . . 1
Clingman v. Beaver,
544 U.S. 581 (2005). . . . . . . . . . . . . . . . . . . . . . . . 1
Elrod v. Burns,
427 U.S. 347 (1976). . . . . . . . . . . . . . . . . . . . 4, 5, 9
Illinois Bd. of Elections v. Socialist Workers Party,
440 U.S. 173 (1979). . . . . . . . . . . . . . . . . . . . . . . . 8
Kusper v. Pontikes,
414 U.S. 51 (1973). . . . . . . . . . . . . . . . . . . . . . . . . 3
Munro v. Socialist Workers Party,
479 U.S. 189 (1986). . . . . . . . . . . . . . . . . . . . . . . . 1
Quinn v. Millsap,
491 U.S. 95 (1989). . . . . . . . . . . . . . . . . . . 4, 5, 7, 8
Timmons v. Twin Cities Area New Party,
520 U.S. 351 (1997). . . . . . . . . . . . . . . . . . . . . . . 15
United Public Workers v. Mitchell,
330 U.S. 75 (1947). . . . . . . . . . . . . . . . . . . . . . . . . 7

iii
Washington State Grange v. Washington State
Republican Party,
552 U.S. 442 (2008). . . . . . . . . . . . . . . . . . . . . . . . 1
Wieman v. Updegraff,
344 U.S. 183 (1952). . . . . . . . . . . . . . . . . . 4, 6, 7, 8
Williams v. Rhodes,
393 U.S. 23 (1968). . . . . . . . . . . . . . . . . . . . passim
CONSTITUTION
Del. Const., art. IV, § 3 . . . . . . . . . . . . . . . . . . . . . 2, 3
U.S. Const., amend. I . . . . . . . . . . . . . . . . . . . . . 3, 8, 9
U.S. Const., amend. XII . . . . . . . . . . . . . . . . . . . . . . 10
U.S. Const., art. II, § 1 . . . . . . . . . . . . . . . . . . . . . . . 10
OTHER AUTHORITIES
Mark R. Brown, Ballot Fees as Impermissible
Qualifications for Federal Office, 54 Am. U. L.
Rev. 1283 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . 11
Mark R. Brown, Policing Ballot Access: Lessons
From Nader’s 2004 Run for President, 35 Cap.
U. L. Rev. 163 (2006) . . . . . . . . . . . . . . . . . . . . . 16
Joel Edan Friedlander, Is Delaware’s “Other Major
Party” Really Entitled to Half of Delaware’s
Judiciary?, 58 Ariz. L. Rev. 1139 (2016) . . . . . . 12

iv
Richard L. Hasen, Entrenching the Duopoly: Why
the Supreme Court Should Not Allow the States
to Protect the Democrats and Republicans
From Political Competition, 1997 S. Ct. Rev. 331
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15
Samuel Issacharoff & Richard H. Pildes, Politics as
M ark ets: P a r t i s a n L o c k u p s o f t h e
Democratic Process, 50 Stan. L. Rev. 643 (1998)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 11, 13, 14
Libertarian Party, Elected Officials, available at
https://my.lp.org/elected-officials/?page=
CiviCRM&q=civicrm/profile&gid=38&force=1
&crmRowCount=100&reset=1 . . . . . . . . . . . . . . . 2
Libertarian Party, Elected Officials – Susan Bell,
available at https://my.lp.org/electedofficials/?page=CiviCRM&q=civicrm%2Fprofile
%2Fview&reset=1&id=114528&gid=38 . . . . . . . 3
Libertarian Party, Statement of Principles,
available at https://www.lp.org/platform/ . . . . . . 1
Gregory P. Magarian, Regulating Political Parties
Under a “Public Rights” First Amendment, 44
Wm. & Mary L. Rev. 1939 (2003). . . . . . . . . 14, 16
Our Campaigns, Buttrick, John, available at
https://www.ourcampaigns.com/CandidateDeta
il.html?CandidateID=4814 . . . . . . . . . . . . . . . . . . 3
Joel Rogers, Two-Party Systems: Pull the Plug, 52
Admin. L. Rev. 743 (2000) . . . . . . . . . . . . . . . . . 16

v
State of Delaware Department of Elections, Voter
Registration Totals By Political Party, available
at https://elections.delaware.gov/reports/
e70r2601pty_20200215.shtml . . . . . . . . . . . . . . . 2
Richard Winger, Ballot Format: Must Candidates
Be Treated Equally?, 45 Cleve. St. L. Rev. 87
(1997). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

1
INTEREST OF AMICUS CURIAE1
The Libertarian National Committee (“LNC”) is the
governing body of the Libertarian Party, the thirdlargest political party in the United States. The
Libertarian Party was founded in 1971 to promote the
principles of liberty set forth in the party’s Statement
of Principles.2 The Libertarian Party’s interests are
frequently implicated by state election laws, including
those that burden candidates and voters who seek to
participate in the political process without joining the
Democratic Party or the Republican Party. Accordingly,
the Libertarian Party and its state affiliates have
repeatedly presented their views on such issues to this
Court, both as a party (for example, in Washington
State Grange v. Washington State Republican Party,
552 U.S. 442 (2008), and Clingman v. Beaver, 544 U.S.
581 (2005)) and as an amicus (for example, in Burdick
v. Takushi, 504 U.S. 428 (1992), Munro v. Socialist
Workers Party, 479 U.S. 189 (1986), and Anderson v.
Celebrezze, 460 U.S. 780 (1983)).

1

No counsel for a party authored this brief in whole or in part, and
no entity or person, other than amicus curiae, its members, and its
counsel, made a monetary contribution intended to fund the
preparation or submission of this brief. Letters from the parties
consenting to the filing of amicus briefs in this case are on file with
the Clerk.
2

See Libertarian Party, Statement of Principles, available at
https://www.lp.org/platform/ (last visited February 22, 2020).

2
The Libertarian Party has a direct interest in
this case, in that members of the Libertarian Party
reside in the State of Delaware and are registered
t o v o t e a s L i b e r t a r i a n . See St a t e o f
Delaware Department of Elections, Voter Registration
Totals By Political Party, available at
https://elections.delaware.gov/reports/e70r2601pty_2
0200215.shtml (last visited February 20, 2020). By
operation of Article IV, Section 3 of the Delaware
Constitution, these citizens are prohibited from serving
as Justices of the Delaware Supreme Court,
Chancellors or Vice-Chancellors of the Delaware Court
of Chancery, or Judges of the Delaware Superior Court.
Such prohibition harms not only the core First
Amendment rights of the Libertarian voters subject to
it, but also those of the Libertarian Party. The
Libertarian Party cannot exercise its freedom to
develop and grow as a party, and to participate in all
aspects of the political and electoral processes in
Delaware on an equal basis with the state’s “major”
parties, when its members are prohibited by virtue of
their partisan affiliation from serving as members of
these courts.
Further, in each election cycle, the Libertarian
Party runs hundreds of candidates nationwide for local,
state and federal office. There are currently no fewer
than 231 Libertarian Party members who serve in
public office in the United States, either because they
were elected or because they were appointed to their
offices. See Libertarian Party, Elected Officials,
available at
https://my.lp.org/electedofficials/?page=CiviCRM&q=civicrm/profile&gid=38&
force=1&crmRowCount=100&reset=1 (last visited

3
February 20, 2020). Libertarians have also been elected
and appointed to state judicial offices. See, e.g.,
Libertarian Party, Elected Officials – Susan Bell,
available at
https://my.lp.org/electedofficials/?page=CiviCRM&q=civicrm%2Fprofile%2Fvi
ew&reset=1&id=114528&gid=38 (last visited February
21, 2020); Our Campaigns, Buttrick, John, available at
https://www.ourcampaigns.com/CandidateDetail.htm
l?CandidateID=4814 (last visited February 20, 2020).
If other states adopted prohibitions like the one in
Article IV, Section 3 of the Delaware Constitution, or
expanded upon it, the ability of these Libertarians to
continue their service in public office would be
jeopardized. Such a result would imperil the “basic
function” of the Libertarian Party, “to select the
candidates for public office to be offered to the voters at
general elections.” Kusper v. Pontikes, 414 U.S. 51, 58
(1973).
The Libertarian Party therefore submits this brief
as amicus curiae in support of Respondent, because the
prohibition set forth in Article IV, Section 3 of the
Delaware Constitution violates the First Amendment.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Article IV, Section 3 of the Delaware Constitution
categorically excludes Libertarians, independents and
members of other minor parties from serving as judicial
officers of the Delaware Supreme Court, the Delaware
Court of Chancery and the Delaware Superior Court. It
does so pursuant to two provisions. One provision
provides that no more than a “bare majority” of the
judicial officers serving on these courts shall belong to

4
the “same major political party” (the “Bare-Majority
Provision”). The other provision provides that the
remainder of the judicial officers on these courts shall
belong to the “other major political party” (the “TwoParty Provision”). As applied in combination, the BareMajority Provision and the Two-party Provision
absolutely prohibit anyone who is not a member of a
“major” party – i.e., the Republican Party or the
Democratic Party – from serving on the foregoing
courts.
The LNC takes no position with respect to the
constitutionality of the Bare-Majority Provision. The
Two-Party Provision, however, is unconstitutional. It
prohibits Libertarians and anyone else who does not
belong to the Republican Party or Democratic Party
from serving in certain judicial offices based solely on
their political affiliation. As such, the Two-Party
Provision violates this Court’s long-settled precedent
invalidating statutes that condition public service on
“patently arbitrary or discriminatory” grounds.
Wieman v. Updegraff, 344 U.S. 183, 192 (1952).
If the Two-Party Provision were applied to impose
a prohibition against Republicans or Democrats from
serving on Delaware’s state courts, there would be little
doubt as to its unconstitutionality. See id. at 191-92.
Time and again, this Court has held that the
Constitution does not permit the federal or state
government from conditioning public service – either as
an elected official, an appointed official, or an employee
– solely upon the official’s or employee’s political
affiliation. See, e.g., Quinn v. Millsap, 491 U.S. 95
(1989); Branti v. Finkel, 445 U.S. 507 (1980); Elrod v.

5
Burns, 427 U.S. 347 (1976). But Republicans and
Democrats enjoy no special protection under the
Constitution. Indeed, the Constitution makes no
mention of political parties, much less does it afford a
higher degree of protection to any two particular
parties. Consequently, just as Delaware may not bar
Republicans or Democrats from serving on its state
courts based on their political affiliation, it may not
impose such a prohibition against Libertarians, or any
other citizens, based on their political affiliation.
This Court’s ballot access jurisprudence is
instructive. In 1968, when the Court first ruled on the
constitutionality of a state ballot access law, it
concluded that the state cannot restrict access to the
ballot in a manner that “in effect, tends to give”
Republicans and Democrats a “monopoly on the right
to have people vote for or against them.” Williams v.
Rhodes, 393 U.S. 23, 32 (1968)). Here, the Two-Party
Provision does not merely “tend” to give Republicans
and Democrats a monopoly on the right to serve in
certain judicial offices: it imposes an absolute,
categorical prohibition against all others from serving
in those offices. That Delaware accomplishes this
impermissible purpose by restricting eligibility for
appointment to public office rather than by restricting
access to the ballot is of no moment, because
constitutional protection extends to those who seek
appointed office. See Quinn, 491 U.S. 95.
The “good government” justifications for the TwoParty Provision asserted by Respondent and the amici
supporting Respondent should therefore be treated
with skepticism. The Two-Party Provision does not

6
further Delaware’s asserted interest in a politically
balanced judiciary, Pet. App. 30a, but rather a judiciary
narrowly confined to members of two – and only two –
political parties. And there is ample reason to conclude
that those two parties, who jointly imposed the TwoParty Provision upon their fellow citizens, did so to
further their own partisan interests rather than any
legitimate state interest. Indeed, the academic
scholarship overwhelmingly suggests that the TwoParty Provision is precisely the sort of partisan
interference that led the Framers to view “factions”
with such disdain. This Court should not permit
Republicans and Democrats to seize for themselves a
permanent monopoly on serving as officers of
Delaware’s state courts. The judgment of the Third
Circuit Court of Appeals should be affirmed.
ARGUMENT
I. THE TWO-PARTY PROVISION VIOLATES
LIBERTARIAN PARTY MEMBERS’
CONSTITUTIONAL RIGHTS.
Does the Constitution of the United States of
America permit the State of Delaware to prohibit
members of the Republican Party or the Democratic
Party from serving as judicial officers of the Delaware
state courts? It does not. “[C]onstitutional protection
does extend to the public servant whose exclusion
pursuant to a statute is patently arbitrary or
discriminatory.” Wieman, 344 U.S. at 192. Thus, while
this Court has held that the federal government may
“properly bar its employees from certain types of
political activity thought inimical to the interests of the
Civil Service,” it found it necessary to “cast this holding

7
into perspective by emphasizing that Congress could
not ‘enact a regulation providing that no Republican,
Jew or Negro shall be appointed to federal office, or
that no federal employee shall attend Mass or take any
active part in missionary work.’” Id. at 191-92 (quoting
United Public Workers v. Mitchell, 330 U.S. 75, 100
(1947)). The same constitutional protection extends to
public servants who serve in state offices, including
offices filled by appointment. See Quinn, 491 U.S. 95
(holding that property ownership requirement as
qualification for appointment to local office violated the
Equal Protection Clause).
But if the Constitution does not permit Delaware to
prohibit Republicans or Democrats from serving as
judicial officers of its state courts, on what basis could
the Constitution permit Delaware to impose that same
prohibition on other citizens, solely by virtue of their
partisan affiliation? There is none. Yet, that is what
the Two-Party Provision does, as applied in
combination with the Bare-Majority Provision. Thus,
while the LNC takes no position on the
constitutionality of the Bare-Majority Provision, the
Two-Party Provision as applied in combination with
that provision is unconstitutional under this Court’s
long-settled precedent. The Two-Party Provision
categorically excludes Libertarian voters, and all other
voters who are not registered as Republicans or
Democrats, including voters registered as independent
or as members of another minor party, from serving as
judicial officers of Delaware state courts (albeit not all
such courts). The categorical exclusion of voters from
appointment to such offices, based solely on their
political affiliation, is no less invidious as applied to

8
Libertarians, independents or other minor party
members than it is as applied to Republicans and
Democrats. See Wieman, 344 U.S. at 191-92.
This Court has consistently held that citizens who
choose not to associate with the Republican Party or
Democratic Party have the “freedom to associate as a
political party, a right we have recognized as
fundamental.” Illinois Bd. of Elections v. Socialist
Workers Party, 440 U.S. 173, 184 (1979) (citing
Williams, 393 U.S. at 30-31). This entails that nonmajor political parties have a constitutional right to
run candidates for elective office. See Illinois Bd. of
Elections, 440 U.S. at 184 (right to form a party “has
diminished practical value if the party can be kept off
the ballot”); Williams, 393 U.S. at 31 (right to form a
party “means little if a party can be kept off the
election ballot and thus denied an equal opportunity to
win votes”); see also Anderson v. Celebrezze, 460 U.S.
780, 793 (1983) (holding that burdens on new or small
parties and independent candidates impinge on First
Amendment associational choices). As the Court
observed in Williams, there is “no reason why two
parties should retain a permanent monopoly on the
right to have people vote for or against them.”
Williams, 393 U.S. at 32.
These same principles apply equally to “the right to
be considered for public service” by appointment to
public office. See Quinn, 491 U.S. at 105. Just as “there
is no reason why two parties should retain a
permanent monopoly on” elected offices, there is no
reason why two parties should retain a permanent
monopoly on appointed offices. Both kinds of offices,

9
after all, represent the people. And this Court’s cases
make clear that exclusion because of political affiliation
can be no less pernicious in the workplace than it is at
the polling place. See, e.g., Branti, 445 U.S. at 516
(First Amendment protects public employees from
discharge based on speech and private belief); Elrod,
427 U.S. at 355-58 (requirement that public employees
pledge allegiance to Democratic Party violates First
Amendment).
This is not to say that a state’s use or consideration
of political affiliation is always impermissible. On the
contrary, the political affiliation of candidates is often
printed on ballots, and it is not only known but used by
voters to aid in their selections at the polls. Similarly,
political affiliation can be considered by governors in
making appointments to public offices – arguably
including some or all of the judicial offices at issue
here. But the ability to use information such as
political affiliation to make appointments for public
office is a far cry from the categorical exclusion from
appointment to such offices based on political
affiliation. Just as a law that prohibits citizens from
voting for a minor party or independent candidate is
unconstitutional, see Anderson, 460 U.S. at 793;
Williams, 393 U.S. at 32, a law like Delaware’s TwoParty Provision, which prohibits the appointment of
minor party members and independents, is
unconstitutional.

10
II. THE TWO-PARTY PROVISION FURTHERS
THE PARTISAN INTERESTS OF
DELAWARE’S PREDOMINANT POLITICAL
PARTIES, NOT LEGITIMATE OR
COMPELLING STATE INTERESTS.
This Court’s decisions in cases like Anderson and
Williams are consistent with the Framers’ conception
of the role of political parties in regulating the nation’s
political and electoral processes. The original
Constitution expressly recognized the likelihood that
multiple presidential candidates would receive votes in
the Electoral College. Should no single candidate win
a majority of Electoral College votes, Article II stated,
the House of Representatives would pick the President
“from the five highest on the List.” See U.S. Const., art.
II, § 1. And when the Twelfth Amendment was ratified
in 1804, it provided that the candidates who received
“the highest numbers not exceeding three on the list of
those voted for as President” would proceed for
selection by the House. Thus, both the Framers of 1787
and those a half a generation later expected that more
than two political parties would exist and play an
active role in the nation’s political process.
The Framers feared the damage that two competing
factions could do to the republican form of government
they sought to establish. As Professors Issacharoff and
Pildes explain, “the constitutional structure was
specifically intended to preclude the rise of political
parties, which were considered the quintessential form
of ‘faction.’” Samuel Issacharoff & Richard H. Pildes,
Politics as Markets: Partisan Lockups of the Democratic
Process, 50 Stan. L. Rev. 643, 713 (1998) (footnote

11
omitted). “[W]hen the Constitution was formed and
early elections held, the very idea of political parties
was anathema to the reigning conception of democracy
….” Id. at 677.
For the nation’s first 150 years, the American
political system hewed more closely to the Framers’
intent. “In the nineteenth century,” Professors
Issacharoff and Pildes explain, “American partisan and
ideological competition was far more robust. Third
parties were a consistent and enduring presence,
including the Liberty, Free Soil, Know-Nothing,
Constitutional Union, Southern Democrat, Greenback,
People’s, and Prohibition Parties.” Id. at 644 (footnote
omitted). The resulting robust field of candidates
translated into electoral interest: “[v]oter turnout
dwarfed that in the present era.” Id. (footnote omitted).
Meanwhile, because they “generated more intense and
pervasive personal ties,” id., pluralistic political parties
thrived.
The dawn of the Twentieth Century and the advent
of official state ballots supplied the two dominant
political parties of the day, the Republicans and
Democrats, with the ability to begin unraveling the
Framers’ intent. See Mark R. Brown, Ballot Fees as
Impermissible Qualifications for Federal Office, 54 Am.
U. L. Rev. 1283, 1288 (2005) (“By 1916, the Australian
pre-printed paper ballot had become the universal
norm throughout the United States. … The
development of pre-printed paper ballots … supplied
government its first real opportunity to limit the
number of candidates running for office”). By 1950, in
the midst of the Second Red Scare, states across the

12
country began categorically excluding minor parties
and independent candidates from their official ballots.
See, e.g., Richard Winger, Ballot Format: Must
Candidates Be Treated Equally?, 45 Cleve. St. L. Rev.
87, 90-92 (1997) (describing experience in Ohio and the
Democrats’ and Republicans’ fear of Socialist and
Progressive candidates for party restrictions on ballot
access). Such categorical exclusions continued until at
least 1968, when this Court in Williams ordered Ohio
to place George Wallace and his American Independent
Party on Ohio’s presidential ballot. See Williams, 393
U.S. 23.
Professor Joel Friedlander places Delaware’s
categorical exclusion of independents and minor party
members from serving as officers of its state courts in
this historical context. Such exclusion is not, he
concludes, “a reasonable election regulation that just
happens to favor the two major parties. It is a product
of partisan self-dealing between Democrats and
Republicans in 1951 by which they continue to share
control over the state judiciary to the exclusion of
Independents or members of minor parties.” Joel Edan
Friedlander, Is Delaware’s “Other Major Party” Really
Entitled to Half of Delaware’s Judiciary?, 58 Ariz. L.
Rev. 1139, 1160 (2016). The exclusion has been
perpetuated because it “ensures some level of
institutional support for both incumbent major parties,
because lawyers know that membership and
participation in either major party is a path to the
judiciary.” Id.

13
Similarly, Professors Issacharoff and Pildes have
observed that “state regulations that purportedly
reflect state interests in ‘stability’ or the ‘avoidance of
factionalism’ can be seen as tools by which existing
parties seek to raise the cost of defection and entrench
existing partisan forces more deeply into office.”
Issacharoff & Pildes, supra, at 643. Far from serving a
legitimate state interest, history teaches that
duopolistic restrictions serve only the interests of the
nation’s two predominant political parties. This result
is not surprising. See id. at 682-83 (“we should expect
the two dominant parties to seek to close off avenues of
third-party challenge. … Such efforts to close off thirdparty challenges should be a shared objective of both of
the major parties, regardless of their immediate
position as the majority or opposition party”).
Consequently, “good government” claims, like that
made by the Republican National Committee, should
be met with a measure of skepticism. See, e.g., Carney
v. Adams, No. 19-309 (U.S.), Corrected Amicus Curiae
Brief of the Republican National Committee in Support
of Petitioner, 15-16 (claiming that the two dominant
political parties “serve the more fundamental purpose
of facilitating an organized and coherent politics—in
the broadest, Aristotelian sense,” and that they provide
“a helpful indicator of what a candidate is likely to view
as conducive to the good of the whole”). Such claims
must be tested against the evidence. It cannot be
enough that those who are responsible for excluding
their competitors cloak their actions in the garb of
‘Aristotelian’ justice. The same goes for claims, like
that made by the Republican National Committee, that
“[t]he Delaware Constitution cannot plausibly reduce

14
a better proxy into law.” Id. at 19. The truth of this
bold proposition is hardly self-evident.
Not only does history cast a large shadow of doubt
over the “good government” claim, see, e.g., Issascharoff
& Pildes, supra, at 682-83, but also, common sense and
logic refute it outright.
Rather than seeking
Aristotelian justice, it is far more likely that the
Republicans and Democrats joined to legislate a
categorical ban on their competitors from serving in
appointed office for the same reason they seek to
exclude outsiders from elected office – to maintain
power for themselves. See Gregory P. Magarian,
Regulating Political Parties Under a “Public Rights”
First Amendment, 44 Wm. & Mary L. Rev. 1939, 1993
(2003) (“‘partisan lockups’ are easiest to identify when
a single political party controls a jurisdiction, but they
may also result from the two major parties’ collective
efforts to bar minor parties from the political stage”)
(footnotes omitted).
The position the Republican National Committee
advances in this case is not new. For some time,
“responsible party government scholars [] have argued
that the two-party system promotes political stability,
combats factionalism, and provides a valuable voting
cue.” Richard L. Hasen, Entrenching the Duopoly: Why
the Supreme Court Should Not Allow the States to
Protect the Democrats and Republicans From Political
Competition, 1997 S. Ct. Rev. 331, 342. “[T]hese
scholars,” however, “have not proven that the two-party
system, especially the modern system since the advent
of capital-intensive, candidate-centered campaigns,
actually has these effects.” Id. Professor Hasen thus

15
offers “at least three good reasons the Court should be
skeptical of speculative empirical claims made in
support of legislation favoring the two-party system:
First, there is a severe agency problem here:
virtually all of the legislators who will make
these decisions are members of one of the two
major political parties, and the choice may be
less the product of reason than of self-interest.
… Second, there are informational losses
associated with restrictions on third parties. …
Favoring the two-party system ultimately
provides voters with less information about the
choices available to them in terms of candidates,
parties, and issues. … Finally, the lack of a
competitive political market may have other
costs as well. … A strong duopoly could make it
less likely that the Democrats and Republicans
will feel pressure to become the encompassing
parties that responsible party government
theorists hope they will become.
Id. at 343-44, 358, 360. For these reasons, “the
unproven conjecture that the [two-party] system
maintains political stability” cannot be sustained. Id. at
358. Instead, “circumstantial evidence and underlying
theory point in the opposite direction. In short, neither
political stability nor antifactionalism justifies the
Supreme Court’s decision to favor the two-party
system.” Id. at 360 (discussing Timmons v. Twin Cities
Area New Party, 520 U.S. 351, 367 (1997) (concluding
that “the States’ interest permits them to enact
reasonable election regulations that may, in practice,
favor the traditional two party system”).

16
Many scholars have echoed this view. Professor
Magarian, for example, has observed that “[t]he theory
of responsible party government reflects a pessimistic
and elitist view of politics.” Magarian, supra, at 1991.
“The trouble with this vision is that its fixation on
stability exacts a heavy price in political vitality.
Members of the political community, especially but not
exclusively those who are uncomfortable in the major
party coalitions, have little reason to participate in the
political process.” Id. Consequently, “[i]n recent years,
the legal literature has revealed an increasing level of
concern about the judiciary’s embrace of the
responsible party government theory. A diverse group
of academic commentators has questioned the major
party duopoly’s representative character and
effectiveness and, accordingly, the Court’s role in
sustaining the duopoly.” Id. at 1992; see, e.g., Joel
Rogers, Two-Party Systems: Pull the Plug, 52 Admin. L.
Rev. 743 (2000) (arguing that the modern duopoly has
not achieved good government and charging the major
parties with two central shortcomings: failure to
develop and implement coherent programs, and
insufficient representation of partisan and ideological
minorities); Mark R. Brown, Policing Ballot Access:
Lessons From Nader’s 2004 Run for President, 35 Cap.
U. L. Rev. 163, 169 (2006) (“Far from facilitating a
robust marketplace of ideas, America’s two-party
system often suppresses meaningful discussion”
(footnote omitted)).
The reality is that Delaware’s Two-Party Provision
does not foster good government within any
understandable sense of those words. It is not
necessary for Aristotelian justice. It does not promote

17
nonpartisanship. It does not in a meaningful way proxy
for people’s preferences. It does not foster principled
developments in the law. It does not obviate the
possibility of political gamesmanship. It has nothing to
do, in short, with achieving constitutionally acceptable
political balance. Far from it. The Two-Party
Provision is designed to achieve an unconstitutional
imbalance in the State’s court system, and it achieves
that purpose. It is therefore unconstitutional.
CONCLUSION
For the foregoing reasons, the decision of the Third
Circuit Court of Appeals should be affirmed.
Respectfully submitted,
Oliver B. Hall
Counsel of Record
2515 Cliffbourne Pl. NW
Washington, D.C. 20009
(202) 280-0898
oliverbhall@gmail.com
Counsel for Amicus Curiae
February 27, 2020

